      Department of Homeland Security





      FEMA Should Disallow $21,113 of the $654,716 in 

    Public Assistance Grant Funds Awarded to the Alaska 

       Department of Natural Resources, Wasilla, Alaska 





DS-13-04                                         March 2013

                                      OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



                                                   ~~ AR     8 2013
    MEMORANDUM FOR:                      Kenneth Murphy

                                                                                    Agency

    FROM:
                                         Assistant Inspector Ge ral
                                         Office of Emergency Management Oversight

    SUBJECT:                            FfMA Should Disallow $21,113 of the $654,716 in Public
                                        Assistonce Grant Funds Awarded to the Alaska Deportment
                                        of Natural Resources, Wosilla, Alaska
                                        FEMA Disaster Number 1663-DR-AK
                                        Audit Report Number OS-13--04

We audited Public As.listance {PAj grant funds awarded to the Alaska Department of
Natural Resources, Wasilla, Alaska (Depa rtmen!), Pu blic Assista nce Identification
Number OOO-UD421-00. Our audit objective was to determine whether the Department
accounted for and expended Federal Emergency Management Agency (FEMAj grant
funds according to Federal regulations and FEMA guidelines.

The Alaska Division of Homeland Security and Emergency Management (ADHSEM), a
FEMA grantee, awarded the Department $6S4,716 for costs due to damages from
severe storm~, flooding, land.llide" and mud.,tides from August 15 through 2S, 20{)6.
The award provided 7S percent FEMA funding for three large projects and four small
projects.' Our audit covered the period from August 15, 2006, to January9, ZOB. We
audited all Sev~n projects with incurred charges totaling $305,319. As of January 2013,
the Department has not submitted final costs claimed for two large projects (see
Exhibit).

We conducted this performance audit between July 2012 and January 2013 pursuant to
the impector Generol Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies in effect at the time of the disaster.



j   Federal re~ulalion< in . rreel al lhe lime of the di",ster set the large projecl Ih .. '.hold.t $59,700
                               OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



   We interviewed FEMA, ADHSEM, and Department officials; reviewed judgmentally
   selected project costs (generally based on dollar value); and performed other
   procedures considered necessary to accomplish our objective. We did not assess the
   adequacy of the Department’s internal controls applicable to grant activities because it
   was not necessary to accomplish our audit objective. We did, however, gain an
   understanding of the Department’s method of accounting for disaster-related costs and
   its procurement policies and procedures.


                                      RESULTS OF AUDIT

   Of the $305,319 in project charges we reviewed, the Department generally managed
   FEMA’s PA grant funds according to Federal grant regulations and FEMA guidelines.
   However, the Department charged Projects 79, 81, and 84 with a total of $21,133 of
   ineligible administrative and force account labor costs (see table).

                       Table – Summary of Questioned Costs by Finding
     Finding                      Subject                Questioned Costs
        A             Ineligible Administrative Costs              $16,176
        B          Ineligible Force Account Labor Costs               4,957
      Total                                                        $21,133

   Finding A: Ineligible Administrative Costs

   Department officials charged to Projects 79 and 81, as direct project costs, $16,176 in
   expenditures covered by FEMA’s statutory administrative allowance.

   Federal regulations and FEMA guidelines stipulate that—

           The costs associated with requesting, obtaining, and administering public
           assistance subgrants are covered by FEMA's statutory administrative allowance
           (44 CFR 206.228(a)(2)(ii)).

   Administrative allowance covers direct and indirect costs incurred in requesting,
   obtaining, and administering PA. The allowance is intended to cover activities such as
   identifying damage, assessing damage, and developing cost estimates (FEMA 322, Public
   Assistance Guide, October 1999, pp.41–42).

   The Department charged $12,988 to Project 79 and $3,188 to Project 81 for a total of
   $16,176, in administrative-related tasks consisting of project planning, damage
   assessment, statement of work development, and meetings with FEMA. Because the
   charges are covered by FEMA’s statutory administrative allowance, the Department

www.oig.dhs.gov                                 2                                        DS-13-04
                                   OFFICE OF INSPECTOR GENERAL

                                     Department of Homeland Security 



   cannot charge them separately as direct project costs. FEMA officials generally agree
   with our conclusion. Therefore, we question $16,176 ($12,988 plus $3,188) of ineligible
   administrative costs charged to Projects 79 and 81.

   Finding B: Ineligible Force Account Labor Costs

   The Department charged $4,957 to Projects 79 ($4,304) and 84 ($653) in force account
   labor costs not eligible for Federal reimbursement.

   Federal regulations stipulate that—

           Costs are adequately documented to be allowable under a Federal award (2 CFR
           225, Cost Principles for State, Local, and Indian Tribal Governments, Appendix A,
           Section C.1.j).2

           Subgrantees have fiscal controls and accounting procedures that permit the
           tracing of funds to a level of expenditure adequate to establish that such funds
           are not used in violation of applicable laws (44 CFR 13.20(a)(2)).

   The Department’s accounting records for Projects 79 and 84 do not support that the
   $4,957 in force account charges pertain to disaster related tasks.3 Department officials
   explained that the discrepancy may be related to a coding error in their accounting
   system. Those officials indicated that they would research the issue, and if they
   determine that the costs are not disaster related, they would not submit for
   reimbursement the $4,304 pertaining to Project 79. With regard to Project 84, FEMA
   noted that they would recoup from the Department the $653 in already reimbursed
   force account labor—if the charges are determined not eligible for Federal disaster
   assistance. Therefore, we question the $4,957 in force account labor the Department
   has charged to Projects 79 ($4,304) and 84 ($653).


                                          RECOMMENDATIONS

   We recommend that the FEMA Region X Administrator:

       Recommendation #1: Disallow $16,176 (Federal share $12,132) of ineligible
       administrative costs charged to Projects 79 and 81 (finding A).



   2
    OMB Circular A-87 was moved to 2 CFR 225 effective August 31, 2005. 

   3
    At the time of our field work, the Department had not requested total reimbursement for Project 79 and 

   had closed out and received full reimbursement for Project 84.


www.oig.dhs.gov                                       3                                               DS-13-04
                                OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security 



       Recommendation #2: Disallow $4,304 (Federal share $3,228) of ineligible force
       account labor costs charged to Project 79, if these costs are included in the final cost
       claim (finding B).

       Recommendation #3: Recoup $653 (Federal share $490) of ineligible force account
       labor costs charged to Project 84 (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with Department officials during our audit and
   included their comments in this report, as appropriate. We also provided a draft report
   to FEMA, ADHSEM, and Department officials. We discussed the draft report at an exit
   conference held with FEMA officials on January 9, 2013, and they generally agreed with
   our findings and recommendations. ADHSEM and Department officials did not request
   an exit conference.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. The recommendations will
   be considered open and unresolved until your response is received and evaluated.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination

   Major contributors to this report are Humberto Melara, Western Region Audit Director;
   Louis Ochoa, Audit Manager; Connie Tan, Auditor-in-Charge; and Paul Sibal, Auditor.

   Please call me with any questions, or your staff may contact Humberto Melara, Western
   Region Audit Director at (510) 637-1463.




www.oig.dhs.gov                                 4                                          DS-13-04

                                  OFFICE OF INSPECTOR GENERAL

                                    Department of Homeland Security 


                                                                                               EXHIBIT

                                 Schedule of Audited Projects 

                              August 15, 2006, to January 9, 2013 

                        Department of Natural Resources, Wasilla, Alaska 

                              FEMA Disaster Number 1663-DR-AK 


                                                 Ineligible           Ineligible
                   Project       Project       Administrative      Force Account
      Project       Award        Charges           Costs            Labor Costs        Total Costs
      Number       Amount       Reviewed        (Finding A)          (Finding B)       Questioned
        44            $2,825       $2,825                                                        $0
        54            41,917       41,917                                                          0
         791        225,171        55,732               $12,988             $4,304           17,292
         811        318,088       138,130                 3,188                               3,188
        84           56,0312       56,031                                      653              653
        89             8,377        8,377                                                          0
        90             2,307        2,307                                                          0
       Totals      $654,716      $305,319               $16,176             $4,957         $21,133
      1
        As of January 2013, final costs claimed have not been submitted for Projects 79 and 81.

      Therefore, we audited the accumulated incurred charges. 

      2
        Large Project 84 was initially awarded for a total of $131,992. At project closeout, FEMA 

      reimbursed the Department final costs of $56,031 and deobligated $75,961 in unneeded funding. 





www.oig.dhs.gov                                     5                                               DS-13-04

                                OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security 


                                                                           APPENDIX


                                     Report Distribution
                              FEMA Disaster Number 1663-DR-AK

   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Acting Chief Privacy Officer
   Audit Liaison, DHS

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-037)
   Director, Recovery Division, Region X
   Deputy Director, Recovery Division, Region X
   Audit Liaison, Region X
   Audit Follow-up Coordinator

   Grantee (Alaska Division of Homeland Security and Emergency Management)
   Director
   Deputy Director
   Disaster Assistance Branch Chief

   State (Alaska)
   Alaska State Auditor, Division of Legislative Audit

   Subgrantee (Alaska Department of Natural Resources, Wasilla, Alaska)
   Superintendent
   Administrative Officer

   Congress
   Congressional Oversight and Appropriations Committees, as appropriate

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

www.oig.dhs.gov                                 6                               DS-13-04

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
